Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    THE FOOD AND DRUG 

  ADMINISTRATION’S GENERIC 

   DRUG REVIEW PROCESS





                    Daniel R. Levinson

                     Inspector General 


                       June 2008 

                     OEI-04-07-00280

                 Office of Inspector General 

                                      http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                               S U M M A R Y


                  OBJECTIVES
                  1. 	 To determine the percentage of new (i.e., original) generic drug
                       applications approved, tentatively approved, or disapproved by the
                       Food and Drug Administration (FDA) in 2006.

                  2. 	 To determine the extent to which FDA reviewed original generic
                       drug applications within 180 days in 2006.

                  3. 	 To identify factors that affected review times for original and
                       amended generic drug applications in 2006.


                  BACKGROUND
                  Pharmaceutical companies must submit Abbreviated New Drug
                  Applications (ANDA) to FDA’s Office of Generic Drugs (OGD) and
                  receive FDA’s approval before marketing new generic drugs. Three
                  OGD divisions review all ANDAs: Chemistry, Bioequivalence, and
                  Labeling. OGD’s Microbiology division also reviews some ANDAs.
                  In addition, OGD may consult with other FDA offices during ANDA
                  reviews. All OGD divisions involved in the ANDA review contribute to
                  approval, but disapproval is primarily determined by Chemistry.
                  According to FDA, almost all original ANDAs contain Chemistry
                  deficiencies and are disapproved.

                  OGD generally follows a first-in, first-reviewed policy for ANDAs.
                  However, when Chemistry identifies no deficiencies in an ANDA
                  (i.e., the ANDA is approvable by Chemistry), the other divisions assign
                  high priority to the ANDA’s review. Pursuant to FDA policy, divisions
                  should also assign high priority to ANDAs with minor deficiencies.
                  In addition, some ANDA consults are assigned high priority.

                  FDA’s timeliness in approving generic drugs has recently been a topic of
                  scrutiny by both Congress and the media. Federal law requires that
                  FDA approve, tentatively approve, or disapprove original ANDAs within
                  180 days of receipt.

                  We examined review times for 989 original ANDAs under review during
                  2006. We also surveyed OGD division reviewers assigned to a sample of
                  105 ANDAs with review times greater than 180 days in at least one
                  division. Finally, we conducted structured interviews with OGD
                  officials to determine factors affecting ANDA review times.




OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   i
E X E C U T I V E                   S U          M M A R Y 




                   FINDINGS
                   The Food and Drug Administration approved or tentatively approved
                   4 percent of original Abbreviated New Drug Applications under
                   review in 2006; the remaining 96 percent did not meet review
                   standards and were disapproved. FDA approved 1 percent and
                   tentatively approved 3 percent of original ANDAs under review in 2006.
                   FDA disapproved 96 percent of original ANDAs under review in 2006
                   because they contained Chemistry deficiencies.
                   The Food and Drug Administration exceeded the 180-day review
                   requirement for nearly half of original Abbreviated New Drug
                   Applications under review in 2006 because Chemistry reviews
                   exceeded 180 days. In 2006, Chemistry did not review 46 percent of
                   original ANDAs within 180 days as required by Federal law. For ANDAs
                   taking more than 180 days for review, the median review time was
                   217 days. Because almost all of these original ANDAs contained
                   Chemistry deficiencies, Chemistry’s delay in reviewing these ANDAs
                   resulted in FDA’s delay in disapproving them, regardless of the
                   timeliness of the other divisions’ reviews.
                   Microbiology, Bioequivalence, and Labeling reviews of original
                   Abbreviated New Drug Applications generally exceeded 180 days in
                   2006. In 2006, the percentages of ANDAs with review times exceeding
                   180 days were 76 percent in Microbiology, 58 percent in Bioequivalence,
                   and 56 percent in Labeling. For ANDAs taking more than 180 days to
                   review, median review times were 361 days in Microbiology, 287 days in
                   Bioequivalence, and 277 days in Labeling.
                   Nearly 70 percent of sampled division reviews exceeding 180 days
                   did not begin before the 180-day review periods expired. In a sample
                   of 105 ANDAs with review times exceeding 180 days, reviews for
                   69 percent did not begin within 180 days. Thus, the 180-day periods
                   passed before division reviews began in most of the sample.
                   The Food and Drug Administration’s prioritization practices affect
                   Abbreviated New Drug Application review times. FDA prioritization
                   practices contribute to longer review times for ANDAs that are close to
                   approval.




 OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   ii
E X E C U T I V E                   S U          M M A R Y 




                   RECOMMENDATIONS
                   We found that FDA disapproved most original ANDAs under review in
                   2006 because they did not meet FDA review standards. Nearly half of
                   Chemistry review times exceeded the 180 days required by Federal law.
                   Moreover, many review times in other OGD divisions exceeded
                   180 days. In addition, for a sample of ANDA reviews exceeding
                   180 days, most reviews did not begin before the 180-day period expired.
                   Finally, we found that FDA prioritization practices affect ANDA review
                   times.

                   The ANDA submissions have increased at more than double the rate of
                   review resources in the last 5 years. To better manage FDA’s current
                   ANDA review resources and potentially improve ANDA review times,
                   we recommend that FDA:
                   Identify common original Abbreviated New Drug Application
                   deficiencies and offer more guidance to industry to decrease the
                   percentage disapproved.
                   Increase the percentage of original Abbreviated New Drug Applications
                   reviewed by all divisions within 180 days.
                   Identify new prioritization practices to reduce review times for
                   Abbreviated New Drug Applications close to approval.


                   AGENCY COMMENTS
                   In its comments to the draft report, FDA noted that it has already
                   identified portions of the primary recommendations and is
                   implementing process improvements that are the same as or similar to
                   the recommendations. Specifically, FDA agreed with our first
                   recommendation but did not indicate whether it concurred with the two
                   additional recommendations. However, FDA has taken actions that
                   address our recommendations by providing guidance to assist industry
                   in submitting more easily reviewed applications, developing a focused
                   hiring program to increase staff and decrease review times, and
                   prioritizing some ANDAs based on potential market entry date.

                   We ask that, in its final management decision, FDA more clearly
                   indicate whether it concurs with each of our recommendations.




 OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   iii
Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 

                    FDA disapproved most original ANDAs. . . . . . . . . . . . . . . . . . . . . 12 


                    Chemistry reviews exceeded 180 days . . . . . . . . . . . . . . . . . . . . . . 13 


                    Review times in other divisions exceeded 180 days. . . . . . . . . . . . 15 


                    Sampled reviews did not start within 180 days. . . . . . . . . . . . . . . 16 


                    ANDAs are not prioritized . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 


                    Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25 

                    A: 	Additional Information on Methodology . . . . . . . . . . . . . . . . . . 25 


                    B: 	2006 Chemistry Review Time Ranges . . . . . . . . . . . . . . . . . . . 28 


                    C: 	2006 Microbiology, Bioequivalence, and Labeling

                        Review Time Ranges. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 


                    D: 	Frequency Distribution of Office of Generic Drugs
                        Consults Pending as of June 2007 . . . . . . . . . . . . . . . . . . . . . . 30

                    E: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36 

Δ    I N T R O D U C T I O N



                  OBJECTIVES
                  1. 	 To determine the percentage of new (i.e., original) generic drug
                       applications approved, tentatively approved, or disapproved by the
                       Food and Drug Administration (FDA) in 2006.

                  2. 	 To determine the extent to which FDA reviewed original generic
                       drug applications within 180 days in 2006.

                  3. 	 To identify factors that affected review times for original and
                       amended generic drug applications in 2006.


                  BACKGROUND
                  A generic drug is the same as a reference-listed (i.e., brand name) drug
                  with respect to conditions of use, active ingredient(s), route of
                  administration, dosage form, strength, and labeling.1 In addition, the
                  generic drug must be bioequivalent to (i.e., perform in the same manner
                  as) the brand name drug.

                  A generic drug that is therapeutically equivalent is expected to have the
                  same clinical effect and safety profile as the brand name drug when
                  administered under the conditions specified in the labeling. If generic
                  drugs are determined to be therapeutically equivalent, physicians and
                  pharmacists can substitute them for brand name drugs.

                  Generic drug applications are referred to as Abbreviated New Drug
                  Applications (ANDA).2 Pharmaceutical companies must submit ANDAs
                  and receive FDA’s approval before marketing new generic drugs.3




                    1 21 U.S.C. § 355(j)(2) (§ 505(j)(2) of the Federal Food, Drug, and Cosmetic Act);
                  21 CFR §§ 314.92 and 314.105(c). Some differences between generic and brand name drugs
                  are permitted under 21 U.S.C. § 355(j)(2). See also “Abbreviated New Drug Application
                  (ANDA) Process for Generic Drugs,” Center for Drug Evaluation and Research. Available
                  online at http://www.fda.gov/cder/regulatory/applications/anda.htm. Accessed on
                  November 29, 2007.
                    2 The term “abbreviated” is used because FDA does not require generic drug
                  manufacturers to submit the clinical studies necessary for brand name drug applications.
                  Instead, the ANDA must demonstrate that the generic drug is the same as a brand name
                  drug.
                    3 21 CFR § 314.105(d).




OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   1
I N T R O D        U C T        I O N


                    FDA’s timeliness in approving generic drugs has recently been a topic of
                    scrutiny by both Congress and the media.4 5 6 Federal law requires that
                    FDA approve or disapprove ANDAs within 180 days of receipt.7
                    Abbreviated New Drug Application Review Components
                    Three divisions within FDA’s Center for Drug Evaluation and Research
                    (CDER), Office of Generic Drugs (OGD), review all ANDAs: the
                    Division of Bioequivalence (Bioequivalence), the Division of Chemistry
                    (Chemistry), and the Division of Labeling and Program Support
                    (Labeling).8 9 In addition, the Microbiology team (Microbiology) reviews
                    some ANDAs.10
                    Other offices within CDER also review ANDAs in certain instances. For
                    example, safety evaluations of inactive ingredients, labeling and
                    bioequivalence protocol reviews, and statistical reviews of
                    bioequivalence studies require OGD to consult other offices within
                    CDER. According to OGD officials, OGD typically sends requests for
                    such reviews (i.e., consults) to the CDER’s Office of New Drugs because
                    it has expertise in these areas. CDER policy provides timeframes for



                       4 “The Generic Drug Maze: Speeding Access to Affordable, Life Saving Drugs.” Hearing
                    of the United States Senate Special Committee on Aging. July 20, 2006. Available online
                    at http://aging.senate.gov/hearing_detail.cfm?id=270735&. Accesssed on July 24, 2007.
                      5 “Appropriations for the Food and Drug Administration.” Hearing of the United States
                    House of Representatives Appropriations Committee, Agriculture, Rural Development, Food
                    and Drug Administration and Related Agencies Subcommittee. February 16, 2006.
                      6 Kaufman, Marc. “Generic Drugs Hit Backlog at FDA.” Washington Post.
                    February 4, 2006, p. A01. Available online at http://www.washingtonpost.com/wp­
                    dyn/content/article/2006/02/03/AR2006020302598.html. Accesssed on July 25, 2007.
                      7 21 U.S.C. § 355(j)(5)(A); 21 CFR § 314.101(f)(2). An approval becomes effective on the
                    date of the issuance of the approval letter, except for certain approvals that have delayed
                    effective dates. An approval with a delayed effective date is tentative and does not become
                    final until the effective date. 21 CFR § 314.105(d).
                      8 A CDER organizational chart is available online at
                    http://www.fda.gov/cder/cderorg.htm. CDER provides general information on the ANDA
                    review process online at http://www.fda.gov/cder/ogd/. CDER’s “Manuals of Policies and
                    Procedures” (MaPP) provide official instructions to CDER staff on the drug review process.
                    MaPP Chapter 5200 applies to OGD and is available online at
                    http://www.fda.gov/cder/mapp.htm. Accesssed on January 3, 2008.
                      9 In addition, the Office of Compliance evaluates the generic drug’s manufacturing,
                    packaging, and testing facilities to determine whether they meet current Good
                    Manufacturing Practices pursuant to 21 CFR § 211.
                      10 Microbiology reviews drugs administered as injections, inhalations, or solutions to
                    ensure their sterility. The Microbiology staff is officially housed within the Immediate
                    Office of the OGD Director. When referring to OGD divisions throughout this report,
                    Microbiology is included.



 OEI-04-07-00280    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   2
I N T R O D        U C T        I O N


                    OGD to receive consult results from other CDER offices.11 Policy
                    timeframes range from 15 to 90 days, based on the priority of the
                    consult. A consult’s priority is based, in part, on how close the ANDA is
                    to approval.
                    Abbreviated New Drug Application Review Process
                    OGD generally employs CDER’s first-in, first-reviewed policy for
                    ANDAs.12 However, OGD grants expedited reviews of ANDAs in special
                    circumstances.13
                    When an applicant submits an original ANDA, OGD first conducts a
                    review to determine whether the application is sufficiently complete to
                    permit a substantive review.14 OGD refers to this period as the filing
                    review. The filing review takes approximately 60 days from the ANDA’s
                    receipt date to complete it.

                    If OGD determines that an ANDA is sufficiently complete, it
                    simultaneously assigns the ANDA to Bioequivalence, Chemistry, and
                    Labeling, as well as Microbiology (if required).15 Each division begins
                    its review when the ANDA reaches the top of the division’s waiting list
                    (i.e., queue). Regardless of the outcome of one division’s review, the
                    other divisions generally review the ANDA independently.

                    According to OGD officials, each division follows CDER’s first-in,
                    first-reviewed policy except when Chemistry determines that an ANDA
                    contains no Chemistry deficiencies. In this case, divisions that have not
                    finished reviewing the ANDA assign high priority to it and move it to
                    the top of their queues.




                      11 CDER MaPP 5200.6. “Issuing and Tracking of Consults.” Available online at
                    http://www.fda.gov/Cder/mapp/5200-6.pdf. Accesssed on January 11, 2007.
                      12 CDER MaPP 5240.3. “Review Order of Original ANDAs, Amendments, and
                    Supplements.” Available online at http://www.fda.gov/Cder/mapp/5240-3R.pdf. Accesssed
                    on December 5, 2007.
                      13 Ibid. Expedited reviews are granted for products that respond to current and
                    anticipated public health emergencies; are under special review programs, such as the
                    President’s Emergency Plan for AIDS Relief (PEPFAR); have been identified as nationwide
                    shortages; and are first-generic drugs for which there are no blocking patents or
                    exclusivities. First generics are drugs that have never been approved before as generics
                    and are generic products new to the market.
                      14 21 CFR § 314.101(b).
                      15 An OGD official indicated that if an ANDA is not sufficiently complete, OGD rejects it
                    and sends a “refuse-to-file” letter to the applicant. OGD issued refuse-to-file letters for
                    approximately 9 percent of ANDAs in fiscal year (FY) 2006.



 OEI-04-07-00280    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   3
I N T R O D        U C T        I O N


                    In addition, Chemistry’s review outcome determines OGD’s response to
                    the applicant. According to FDA, Chemistry results are the primary
                    consideration during the ANDA review because Chemistry determines
                    pharmaceutical equivalence, which is a key concept in assessing a
                    generic’s therapeutic equivalence to a brand name drug. Chemistry’s
                    influence on OGD’s response to the applicant and the review process in
                    other divisions is explained in greater detail below.16
                    The Office of Generic Drug’s response and review process if Chemistry
                    identifies deficiencies in the Abbreviated New Drug Application. If an
                    ANDA does not meet Chemistry’s review standards (i.e., Chemistry
                    finds deficiencies in the ANDA), OGD disapproves the ANDA and sends
                    a “not-approvable” letter to the applicant.17 The not-approvable letter
                    summarizes the Chemistry deficiencies. According to OGD officials,
                    most original ANDAs contain Chemistry deficiencies and are
                    disapproved.18 19
                    Even though OGD has issued a not-approvable letter and has
                    disapproved the ANDA based on Chemistry deficiencies, the other
                    divisions continue processing it. If an ANDA does not meet other
                    divisions’ review standards (i.e., other divisions find deficiencies in the
                    ANDA), they issue deficiency letters directly to the applicant
                    summarizing the deficiencies.




                      16 FDA provides various overviews of the ANDA review process. For example, the
                    “Generic Drug (ANDA) Review Process” is a flowchart available online at
                    http://www.fda.gov/cder/handbook/anda.htm. Accesssed on January 3, 2008. OGD officials
                    indicated that the current review process is not accurately reflected in many of these
                    overviews. We provide here our understanding of the current review process based on our
                    contact with OGD officials. Our description may be inconsistent with previous FDA
                    overviews of the process.
                      17 21 U.S.C. § 505(j)(5)(A); 21 CFR § 314.120(a).
                      18 Remarks by Scott Gottlieb, Deputy Commissioner for Medical and Scientific Affairs,
                    FDA. Speech before the Annual Generic Drug Forum. April 7, 2006. Available online at
                    http://www.fda.gov/oc/speeches/2006/genericdrug0407.html. Accesssed on October 9, 2007.
                    According to these remarks, 98 percent of original ANDAs were disapproved in 2004 and
                    93 percent were disapproved in 2005.
                      19 FDA also refers to original ANDAs as ANDAs reviewed during the first review cycle.
                    Throughout this report, our use of the term “original ANDAs” is synonymous with ANDAs
                    reviewed during the first review cycle. Most ANDAs contain Chemistry deficiencies and are
                    disapproved during the first review cycle.



 OEI-04-07-00280    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   4
I N T R O D        U C T        I O N


                    Applicants do not submit new ANDAs in response to not-approvable or
                    deficiency letters. Instead, applicants submit amendments to the
                    appropriate division(s) to correct ANDA deficiencies.20
                    OGD classifies amendments as major or minor.21 Major amendments
                    contain significant new data. Major amendments have the same review
                    priority as original, unreviewed ANDAs and are reviewed according to
                    CDER’s first-in, first-reviewed policy.22 In contrast, minor amendments
                    do not contain significant new data and often indicate that an ANDA is
                    close to approval. When OGD receives a minor amendment, it assigns
                    high priority to it. The division places the minor amendment at the top
                    of its queue, and the reviewer assigned to the ANDA reviews it upon
                    completing his or her current assignment.

                    The Office of Generic Drugs response and review process if Chemistry
                    does not identify deficiencies in the Abbreviated New Drug Application. If
                    Chemistry does not find deficiencies in an ANDA, the other divisions
                    must review it and resolve any deficiencies before OGD sends an
                    approval letter. After each division determines that the ANDA contains
                    no deficiencies, it notifies Chemistry that the ANDA is approvable
                    within that division. Unlike not-approvable letters, OGD sends an
                    approval letter only when all division reviews are complete and the
                    ANDA contains no deficiencies.23
                    If other divisions find deficiencies in an ANDA but Chemistry does not,
                    OGD does not disapprove the ANDA. However, the applicant must
                    resolve the deficiencies before OGD will approve the ANDA. Therefore,
                    when Chemistry does not identify deficiencies in an ANDA and is ready
                    to approve it, the other divisions assign high priority to that ANDA.




                      20 21 CFR § 314.96(a). 

                      21 CDER, Guidance for Industry. “Major, Minor, and Telephone Amendments to 

                    Abbreviated New Drug Applications.” Available online at
                    http://www.fda.gov/cder/guidance/4706fnl.pdf. Accesssed on December 13, 2006.
                      22 Ibid.
                      23 21 CFR § 314.105(d).




 OEI-04-07-00280    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   5
I N T R O D        U C T        I O N


                    According to CDER, 535 ANDAs (and corresponding amendments) were
                    approved in 2006.24 CDER indicates that median approval time for
                    these ANDAs and amendments was nearly 17 months.25
                    Abbreviated New Drug Applications With Valid Patents or Exclusivities
                    In some cases, OGD can only “tentatively approve” an ANDA after all
                    divisions have deemed the ANDA approvable.26 For example, OGD can
                    only tentatively approve an ANDA if valid patents or exclusive
                    marketing rights (exclusivities) exist for brand name drugs.

                    The tentative-approval letter instructs the applicant to notify OGD of
                    any updates to the ANDA within 90 days prior to the patent or
                    exclusivity expiration date. OGD confirms that the ANDA is approvable
                    by all divisions and sends an approval letter to the applicant once the
                    patent or exclusivity expires.

                    Patents on brand name drugs are granted by the U.S. Patent and
                    Trademark Office and are typically valid for 20 years from the date on
                    which the patent was submitted.27 Exclusivities are granted by FDA
                    upon approval of a drug and may last up to 7 years.28 Generally, OGD
                    does not prioritize ANDA reviews according to the dates on which the
                    patents or exclusivities expire (i.e., market entry date).




                      24 This includes ANDAs approved with delayed effective dates. “FDA 2006
                    Accomplishments: Thousands of Safe and Effective Health Care Products Made Available
                    for Patients.” Available online at http://www.fda.gov/oc/accomplishments/healthcare.html.
                    Accesssed on May 5, 2008.
                        25 Approval time is calculated from the time OGD receives the original ANDA to the time
                    it is approved or tentatively approved. Approval time includes filing review time as well as
                    the time necessary for applicants to prepare and submit, and for OGD to review and
                    approve or tentatively approve, all amendments to the ANDA. Ted Sherwood, Office of
                    Pharmaceutical Science in CDER at FDA. “Generic Drugs: Overview of ANDA Review
                    Process.” Available online at.http://www.fda.gov/cder/
                    audiences/iact/forum/200704_sherwood.pdf. Accesssed on June 26, 2007.
                      26 21 CFR §§ 314.105(d) and 314.107. Although the term “approval letters with delayed
                    effective dates” is cited in regulation, OGD officials referred to these letters as
                    tentative-approval letters.
                      27 U.S. Patent and Trademark Office. “General Information Concerning Patents: Nature
                    of Patent and Patent Rights.” Available online at http://www.uspto.gov/go/pac/doc/general/.
                    Accesssed on July 27, 2007.
                      28 FDA, CDER. “Frequently Asked Questions on Patents and Exclusivity.” Available
                    online at http://www.fda.gov/cder/ob/faqs.htm. Accesssed on November 8, 2007.



 OEI-04-07-00280    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   6
I N T R O D        U C T        I O N


                    The Food and Drug Administration’s 180-Day Review Requirement
                    The Federal Food, Drug, and Cosmetic Act requires FDA to approve or
                    disapprove an ANDA within 180 days of initial receipt.29 This 180-day
                    period is called the “review clock.”30
                    The 180-day review clock starts on the date on which OGD receives an
                    ANDA (before the filing review) and stops on the date on which OGD
                    sends an approval letter, a tentative-approval letter, or a
                    not-approvable letter.31 32 If Chemistry identifies deficiencies in an
                    original ANDA, OGD sends a not-approvable letter, and the 180-day
                    review clock stops. If Chemistry identifies no deficiencies in the ANDA,
                    OGD sends an approval or a tentative-approval letter once all
                    remaining divisions deem the application approvable. According to
                    OGD, Bioequivalence, Labeling, and Microbiology deficiency letters do
                    not stop the 180-day review clock.

                    Proposed rule requires all divisions to meet the 180-day review clock. FDA
                    issued a proposed rule in 2004 that would require OGD to send a
                    “complete response” letter to the applicant within 180 days of receipt if
                    an ANDA contains deficiencies.33 The proposed rule specifies that a
                    complete response letter will describe all of the deficiencies that the
                    applicant must address before OGD can approve the ANDA.

                    According to current OGD practice, all divisions must meet the 180-day
                    review clock if Chemistry finds no deficiencies in the original ANDA.
                    However, if Chemistry finds deficiencies, only Chemistry is required to

                      29 Section 505(j)(5)(A) of the Federal Food, Drug, and Cosmetic Act
                    (21 U.S.C. § 355(j)(5)(A)); 21 CFR § 314.100.
                      30 21 CFR § 314.100(a). The law would permit the applicant and FDA to extend this
                    180-day period by mutual agreement. However, OGD officials indicated that they do not
                    extend the review clock.
                       31 Ibid. If OGD deems an ANDA to be sufficiently complete under 21 CFR § 314.101(b),
                    the 180-day review clock starts retroactively on the date of receipt. If OGD deems an
                    ANDA not to be sufficiently complete, the 180-day review clock does not start. If OGD
                    deems a revised and resubmitted ANDA to be sufficiently complete, the 180-day review
                    clock retroactively starts on the date of the resubmission.
                      32 Pursuant to 21 CFR § 314.100(a), FDA may also send an approvable letter under
                    21 CFR § 314.110 to stop the 180-day review clock. However, OGD officials stated that they
                    no longer send approvable letters. We confirmed this practice in OGD’s monthly statistics
                    report, which provides data on OGD actions for original ANDAs in the past 5 years.
                    According to this internal report, OGD has not sent an approvable letter since April 2004.
                    Therefore, we did not include these letters in our review.
                      33 Applications for Approval To Market a New Drug; Complete Response Letter;
                    Amendments to Unapproved Applications, 69 Fed. Reg. 43352, 43355–43356 (proposed
                    July 20, 2004).



 OEI-04-07-00280    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   7
I N T R O D        U C T        I O N


                    meet the 180-day review clock. Therefore, when OGD sends a
                    not-approvable letter based on Chemistry deficiencies, the 180-day
                    review clock stops.

                    In contrast, to comply with the proposed rule, all divisions will need to
                    meet the 180-day review clock regardless of whether Chemistry finds
                    deficiencies in the ANDA.34
                    Review Resources at the Food and Drug Administration
                    The number of ANDAs submitted to OGD has increased at more than
                    double the rate of growth of OGD’s review resources for ANDAs in the
                    last 5 years. Despite this disproportionate growth, OGD’s approval
                    times have decreased.35
                    Funding for the Generic Drugs Program has increased by 74 percent in
                    the last 5 years, from $35.9 million in FY 2001 to $62.6 million in
                    FY 2006.36 37 The number of full-time-equivalent positions in OGD
                    increased by 50 percent during this same time period, from 134 in
                    FY 2001 to 201 in FY 2006.38
                    In contrast, according to CDER, the number of original ANDAs submitted
                    between FYs 2001 and 2006 increased by 158 percent, from 307 to 793.39 40


                      34 According to a recent Semiannual Regulatory Agenda published in the Federal
                    Register, the Department of Health and Human Services estimated that it would publish
                    the final rule in October 2007 (72 Fed. Reg. 22490 (Apr. 30, 2007)). Available online at
                    http://frwebgate.access.gpo.gov/ cgi­
                    bin/getdoc.cgi?dbname=2007_unified_agenda_&docid=f:ua070408.wais. Accesssed on
                    August 29, 2007. As of January 16, 2008, FDA had not published the final rule.
                      35 Ted Sherwood, Office of Pharmaceutical Science in CDER at FDA. “Generic Drugs:
                    Overview of ANDA Review Process.” Available online at http://www.fda.gov/cder/
                    audiences/iact/forum/200704_sherwood.pdf. Accesssed on June 26, 2007.
                      36 The Generic Drugs Program includes OGD and other FDA offices associated with the
                    generic drug review process, such as the Office of Regulatory Affairs and CDER’s Office of
                    Compliance, Office of Regulatory Policy, and Office of New Drugs.
                      37 Generic Drugs Program budget figures were obtained from FDA officials in June 2007.
                      38 Gary Buehler, OGD Director. “Improving Access to Generic Drugs.” Testimony before
                    the United States Senate Special Committee on Aging. July 20, 2006. Available online at
                    http://aging.senate.gov/events/hr161gb.pdf. Accesssed on July 25, 2007.
                      39 Ted Sherwood, Office of Pharmaceutical Science in CDER at FDA. “Generic Drugs:
                    Overview of ANDA Review Process.” Available online at
                    http://www.fda.gov/cder/audiences/iact/forum/200704_sherwood.pdf. Accesssed on
                    June 26, 2007.
                      40 These 793 ANDAs were submitted to OGD in FY 2006. The number of ANDAs in our
                    analysis—989—is greater than 793 because we included ANDAs that were submitted or
                    were under review in calendar year 2006. Our analysis also includes ANDAs submitted
                    before 2006.



 OEI-04-07-00280    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   8
I N T R O D        U C T        I O N


                    FDA continues to revise the ANDA review process to improve approval
                    times and has made progress since 2001.41 According to CDER, median
                    approval time for ANDAs decreased nearly 2 months from 2001 to 2006.42
                    Currently, congressional appropriations fund ANDA reviews. To
                    supplement FDA’s budget, the President’s proposed budget for FY 2009
                    includes over $16 million for ANDA reviews funded through a new user fee
                    program.43 User fees would support CDER’s review by requiring
                    applicants to pay fees when submitting original ANDAs.
                    Related Office of Inspector General Work
                    In 2003, the Office of Inspector General (OIG) reviewed the CDER
                    Office of New Drugs’ management of the new drug application review
                    process for brand name drugs.44 OIG found that there were general
                    workload concerns but that the review process had several strengths.
                    OIG recommended ways for FDA to manage review resources, including
                    assessing workload pressures and rejecting poor-quality applications.

                    In 1989, OIG reviewed FDA’s generic drug approval process.45 OIG
                    concluded that the process for assigning ANDAs to reviewers was
                    arbitrary and could permit favoritism to certain applicants. OIG
                    recommended that FDA consistently apply its first-in, first-reviewed
                    policy for reviewing ANDAs. OIG also recommended that FDA
                    uniformly apply and properly document exceptions to this policy.




                      41 For example, “FDA Announces Initiative To Bolster Generic Drug Program.”
                    October 4, 2007. Available online at
                    http://www.fda.gov/bbs/topics/NEWS/2007/NEW01719.html. Accesssed on
                    November 2, 2007. This particular initiative was incorporated into CDER’s MaPP 5240.3
                    and became effective October 18, 2006.
                      42 Ted Sherwood, Office of Pharmaceutical Science in CDER at FDA. “Generic Drugs:
                    Overview of ANDA Review Process.” Available online at
                    http://www.fda.gov/cder/audiences/iact/forum/200704_sherwood.pdf. Accesssed on
                    June 26, 2007.
                      43 FDA. “Summary of FDA’s FY 2009 Budget.” Available online at
                    http://www.fda.gov/oc/factsheets/budget2009.html. Accesssed on February 28, 2008.
                      44 “FDA’s Review Process for New Drug Applications: A Management Review,”
                    OEI-01-01-00590.
                      45 “Vulnerabilities in the Food and Drug Administration’s Generic Drug Approval
                    Process,” A-15-89-00051.



 OEI-04-07-00280    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   9
I N T R O D        U C T        I O N 




                    METHODOLOGY
                    Scope
                    We examined review times for 989 original ANDAs that were approved,
                    tentatively approved, disapproved, or pending (i.e., the ANDAs had not
                    been reviewed or the reviews were not complete) during 2006.46 47 See
                    Appendix A for additional information about our methodology, including
                    criteria for excluding ANDAs from our analyses.

                    We surveyed OGD division reviewers and conducted structured
                    interviews with OGD officials to determine factors that affect ANDA
                    review times.
                    Data Sources
                    We obtained information about FDA’s generic drug review process from
                    the following sources:

                    • FDA statutes, regulations, policies, procedures, and guidance
                      documents;

                    • FDA’s Centerwide Oracle Management Information System
                      (COMIS);

                    • Surveys of OGD reviewers assigned to a sample of original ANDAs
                      under review in 2006 with review times greater than 180 days;

                    • Structured interviews with OGD officials involved in the generic
                      drug review process; and

                    • OGD’s consult database.
                    Data Collection and Analysis
                    We reviewed FDA law, policies, procedures, and guidance documents to
                    understand the generic drug review process. We compared these
                    documents with information obtained from OGD officials regarding
                    OGD practices. In addition, we analyzed data obtained from COMIS to
                    verify OGD practices.

                    We analyzed 989 original ANDAs to determine review times in each
                    division. Of the 989 original ANDAs, we identified those with review



                      46 This includes ANDAs that were submitted in 2005 and were under review in 2006 or
                    were submitted in 2006 but were reviewed or pending longer than 180 days in 2007.
                      47 The term “original” refers to new, sufficiently complete ANDAs. It does not include
                    amendments.



 OEI-04-07-00280    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   10
I N T R O D        U C T        I O N


                    times greater than 180 days in each division and selected a sample of
                    105 ANDAs.

                    We surveyed OGD reviewers responsible for reviewing the sample of
                    105 ANDAs. We surveyed reviewers about factors contributing to
                    original ANDA review times exceeding 180 days.

                    We conducted structured interviews with 12 OGD officials involved in
                    the administration of the generic drug review process to identify factors
                    contributing to longer review times throughout the review process, from
                    ANDA receipt to approval.

                    Finally, we examined the OGD consult database to determine the
                    number of and review times for pending consults.
                    Limitations
                    We did not independently verify the COMIS data or the OGD consult
                    data to ensure their accuracy.

                    Almost all original ANDAs are disapproved because Chemistry finds
                    deficiencies. Therefore, we determined the extent to which original
                    ANDA review times exceeded the 180-day review clock by analyzing
                    Chemistry review times. We did not determine the extent to which
                    original ANDA review times exceeded the 180-day review clock in other
                    divisions when Chemistry did not find deficiencies.

                    The results from our sample of 105 ANDAs with review times greater
                    than 180 days are not projectable.

                    Shorter ANDA review times cannot be directly linked to faster market
                    entry because of valid patents or exclusivities or applicants’ marketing
                    decisions. For example, an ANDA can be approvable by all divisions
                    within 180 days, but valid patents or exclusivities prevent OGD from
                    approving the ANDA. OGD can only tentatively approve ANDAs before
                    valid patents or exclusivities expire. Once OGD approves ANDAs,
                    applicants’ marketing decisions may further delay or prevent drugs’
                    market entry.
                    Standards
                    We conducted this review in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-04-07-00280    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   11
Δ        F I N D I N G S

 The Food and Drug Administration approved or              FDA’s OGD approved 1 percent and
       tentatively approved 4 percent of original          tentatively approved 3 percent of
                                                           original ANDAs under review in
      Abbreviated New Drug Applications under
                                                           2006.48 49 OGD approves or
review in 2006; the remaining 96 percent did not
                                                           tentatively approves ANDAs that
   meet review standards and were disapproved              meet each division’s review
                       standards. If an ANDA does not meet all review standards (i.e., the
                                  50

                       ANDA contains deficiencies in at least one division), OGD cannot
                       approve it.

                       Generally, approval status (i.e., approved, tentatively approved, or
                       disapproved) is based on whether (1) Chemistry identifies deficiencies in
                       the ANDA and (2) valid patents or exclusivities exist for the
                       brand name drug.

                       OGD approved 1 percent of original ANDAs (9 of 989) under review in
                       2006. No OGD divisions found deficiencies in these ANDAs, and valid
                       patents or exclusivities did not exist for the brand name drugs.51
                       Applicants could market these generic drugs as soon as OGD approved
                       the ANDAs.

                       OGD tentatively approved 3 percent of original ANDAs (34 of 989)
                       under review in 2006. No divisions found deficiencies in these ANDAs,
                       but valid patents or exclusivities existed for the brand name drugs.52
                       Applicants cannot market generic drugs until patents or exclusivities
                       expire or are deemed invalid through litigation.

                       OGD disapproved 96 percent of original ANDAs (946 of 989) under
                       review in 2006. OGD disapproves ANDAs and sends not-approvable
                       letters to applicants when ANDAs do not meet Chemistry’s review
                       standards.

                       To correct the deficiencies noted in not-approvable or deficiency letters,
                       applicants submit major or minor amendments. OGD receives a large

                          48 FDA approved a total of 535 ANDAs in 2006. This included approved or tentatively
                       approved original ANDAs and those requiring amendments. In contrast, our review
                       included only original ANDAs.
                         49 These original ANDAs were approved or tentatively approved during the first review
                       cycle.
                         50 21 CFR § 314.105(d).
                         51 If Bioequivalence, Labeling, or Microbiology found deficiencies in these ANDAs, the
                       deficiencies were resolved before OGD approved the ANDAs.
                         52 If Bioequivalence, Labeling, or Microbiology found deficiencies in these ANDAs, the
                       deficiencies were resolved before OGD tentatively approved the ANDAs.



     OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   12
 F F I I N N D D I I NN GG SS 



                          number of amendments because most ANDAs do not meet OGD’s review
                          standards and are initially disapproved. For example, OGD received
                          828 original ANDAs under review in 2006 but received 4,174 major or
                          minor Chemistry amendments.53
                          Major and minor amendments compete for the same review resources as
                          original ANDAs. Upon receipt, major amendments are placed at the
                          end of the same queue as original ANDAs. Minor amendments are
                          placed ahead of original ANDAs and major amendments in the queue.


The Food and Drug Administration exceeded the                                                       Forty-six percent of original ANDA
   180-day review requirement for nearly half of                                                    Chemistry reviews (456 of 989)
    original Abbreviated New Drug Applications                                                      exceeded the 180-day requirement
under review in 2006 because Chemistry reviews                                                      in 2006.54 For these ANDAs, the
                                                                                                    median review time was 217 days.
                            exceeded 180 days
                                                                                                    Chemistry review time ranges are
                          presented in Appendix B.

                          Table 1 (on the next page) provides the number of original ANDAs
                          under review by FDA’s OGD in 2006 as well as the number, percentage,
                          and median review time for ANDAs having review times greater than
                          180 days. Table 1 presents these data by ANDA approval status.
                          Because Chemistry found deficiencies in most original ANDAs under
                          review in 2006 and stopped the 180-day review clock, Table 1 contains
                          data for Chemistry only.55



                            53 These 828 ANDAs were submitted to OGD in 2006. The number of ANDAs in our
                          analysis—989—is greater than 828 because we included ANDAs that were submitted or
                          were under review in 2006. Thus, our analysis includes ANDAs submitted before 2006.
                            54 Our analysis of the number of original ANDAs exceeding the 180-day review clock is
                          conservative. Because of limitations in the COMIS database, we calculated compliance with
                          the 180-day review clock based on Chemistry review time (from the date on which OGD
                          received the ANDA to the date on which Chemistry completed its review) rather than OGD
                          response time (from the date on which OGD received the ANDA to the date on which OGD
                          sent an approval letter, a tentative-approval letter, or a not-approvable letter). For
                          example, if Chemistry completed its review on Day 185 and found no deficiencies and OGD
                          sent an approval letter on Day 210 (once other divisions deemed the ANDA approvable), our
                          calculation of Chemistry review time would be 185 days. In contrast, pursuant to
                          21 CFR § 314.100, the 180-day review clock would not stop until Day 210.
                            55 One ANDA was pending longer than 180 days at the time we collected the data. FDA
                          later indicated that this ANDA was disapproved and provided the date on which Chemistry
                          completed its review. We used this date to calculate review time for this ANDA, which was
                          included in our analysis of Chemistry’s ANDA review times.



      OEI-04-07-00280     THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   13
F    I N D I N G             S         





    Table 1: 2006 Chemistry Reviews of Original Abbreviated New Drug Applications
                                                                    Number of ANDAs                           Percentage of               Median Review Time for
                                 Number of ANDAs                    With Review Time                     ANDAs With Review                  ANDAs With Review
    ANDA Approval Status                Reviewed                          > 180 Days                        Time > 180 Days                     Time > 180 Days
    Approved                                              9                                    5                                   56%                 268 days
    Tentatively Approved                                34                                   23                                    68%                 300 days
    Disapproved                                       946                                  428                                     45%                 214 days
     All                                              989                                  456                                     46%                 217 days
Source: OIG analysis of FDA COMIS data, 2007.




                            The percentage of ANDAs with review times longer than 180 days, and
                            median review times for these ANDAs, varied according to ANDA
                            approval status:
                            •	 Approved Abbreviated New Drug Applications. Five of the nine original
                               ANDAs approved in 2006 were not reviewed within 180 days.
                               For these five ANDAs, applicants waited a median of 268 days
                               (i.e., almost 3 months beyond the 180-day regulatory timeframe)
                               before they received OGD’s approval and could market the drugs.
                            •	 Tentatively Approved Abbreviated New Drug Applications. Reviews for
                               23 of the 34 tentatively approved original ANDAs exceeded 180
                               days. Applicants waited a median of 300 days (i.e., 4 months
                               beyond the 180-day regulatory timeframe) for OGD to tentatively
                               approve these ANDAs.

                               Regardless of whether OGD reviewed these tentatively approved
                               ANDAs within 180 days, applicants could not market these drugs
                               immediately because of valid patents or exclusivities. For example,
                               even though OGD tentatively approved 11 of the 34 ANDAs within
                               180 days, the patent expiration dates for the brand name drugs
                               ranged from 11 months to 12 years after the date of OGD’s tentative
                               approval.56 57 58



                               56 The earliest expiration date was November 22, 2007, but OGD tentatively approved
                            this ANDA on December 29, 2006 (i.e., 11 months before the patent expired). The latest
                            expiration date was November 14, 2018, and OGD tentatively approved this ANDA on
                            November 6, 2006 (i.e., 12 years before the patent expired).
                              57 Applicants for 2 of the 11 ANDAs were challenging the validity of the patents or
                            exclusivities.
                              58 Five of these ANDAs were expedited PEPFAR applications. Although patents prevent
                            marketing these drugs in the United States, applicants can market them internationally.



     OEI-04-07-00280        THE FOOD       AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S                    14
F   I N D I N G        S


                      •	 Disapproved Abbreviated New Drug Applications. Reviews for
                        428 disapproved original ANDAs exceeded 180 days. For these
                        ANDAs, applicants waited a median of 214 days (i.e., more than
                        1 month beyond the expiration of the 180-day review clock) before
                        OGD notified them of the ANDA disapproval.



    Microbiology, Bioequivalence, and Labeling              In 2006, 77 percent of original
      reviews of original Abbreviated New Drug              ANDAs (760 of 989) had review
                                                            times exceeding 180 days in
     Applications generally exceeded 180 days
                                                            divisions other than Chemistry.
                                        in 2006
                                                            Of ANDAs taking more than
                      180 days to review, median review times were 361 days in Microbiology,
                      287 days in Bioequivalence, and 277 days in Labeling. Review time
                      ranges in each division are presented in Appendix C.

                      OGD does not hold these other divisions (i.e., Microbiology,
                      Bioequivalence, and Labeling) to the 180-day review clock if Chemistry
                      finds deficiencies in the original ANDA. However, FDA’s proposed rule
                      will require all divisions to complete reviews within 180 days,
                      regardless of whether Chemistry finds deficiencies.59
                      Table 2 (on the next page) provides, by division, the number of original
                      ANDAs under review in Microbiology, Bioequivalence, and Labeling in
                      2006 as well as the number, percentage, and median review times for
                      ANDAs having review times greater than 180 days.60




                        59 Applications for Approval To Market a New Drug; Complete Response Letter;
                      Amendments to Unapproved Applications, 69 Fed. Red. (proposed July 20, 2004).
                        60 Data are not available in COMIS to determine the review outcome (i.e., approvable or
                      deficient) in divisions other than Chemistry.



    OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   15
  F    I N D I N G                S         




  Table 2: 2006 Microbiology, Bioequivalence, and Labeling Reviews of Original Abbreviated
  New Drug Applications

                                                                     Number of ANDAs                            Percentage of                  Median Review Time for
                           Total Number of ANDAs                     With Review Time                      ANDAs With Review                     ANDAs With Review
  OGD Division                          Reviewed                           > 180 Days                        Time > 180 Days*                       Time > 180 Days**
  Microbiology                                          229                                 175                                     76%                     361 days

  Bioequivalence                                        989                                 576                                     58%                     287 days

  Labeling                                              989                                 556                                     56%                     277 days

* Some ANDAs had reviews that exceeded 180 days in multiple divisions.

** Median review times may be underestimated because review times for pending ANDAs in these divisions were accruing when we obtained the
data. Of ANDAs with review times greater than 180 days, the percentages that were pending at the time we obtained the data were: 73 percent
for Microbiology (127 of 175 ANDAs), 3 percent for Bioequivalence (16 of 576 ANDAs), and 32 percent for Labeling (178 of 556 ANDAs).

Source: OIG analysis of FDA COMIS data, 2007.




                                                                     In our sample of ANDAs with
Nearly 70 percent of sampled division reviews
                                                                     review times exceeding 180 days,
 exceeding 180 days did not begin before the
                                                                     69 percent (72 of 105) of original
              180-day review periods expired                         ANDAs were in the queue longer
                                                                     than 180 days.61 Thus, the 180-day
                                 periods passed before division reviews began in most of our sample of
                                 105 original ANDAs.

                                 Review time in each division is calculated from the date on which OGD
                                 receives an ANDA to the date on which each division completes its
                                 review of the original ANDA. Review times can be further divided into
                                 two components: the amount of time the ANDA waited in the queue
                                 (i.e., queue time) and the amount of time each division took to
                                 determine whether the ANDA met the division’s review standards
                                 (i.e., division review time).62
                                 Figure 1 (on the next page) compares medians for queue time and
                                 division review time for the sample of 105 ANDAs having review times
                                 greater than 180 days in each division.



                                    61 These data are available for the sample of 105 ANDAs only. The dates on which
                                 reviewers start their reviews (i.e., the dates on which ANDAs leave the queue) are not
                                 provided in the COMIS; reviewers in our sample provided these dates in their survey
                                 responses.
                                   62 Queue time consists of both the filing review time and the time the ANDA awaits
                                 review in the division queue.



      OEI-04-07-00280            THE FOOD       AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S                      16
 F   I N D I N G              S         



                                                                                                                                           Queue Time
      FIGURE 1
                           Chemistry                                 149                                       74
     Comparison                                                                                                                            Division Review Time
Between Queue
        Time and
Division Review        Bioequivalence                                               227                                            21
Time by Division



                             Labeling                                                237                                             9




                         Microbiology                                                     264                                                 37



                                            0                                                 180
                                                                                 Number of Days

                       Source: OIG analysis of FDA COMIS data and OGD reviewer responses, 2007.




             The Food and Drug Administration’s                     FDA prioritization practices
 prioritization practices affect Abbreviated New                    contribute to longer review times
                                                                    for ANDAs close to approval.
                   Drug Application review times
                                                                    ANDAs that are close to approval
                             include those that (1) have high-priority consults; (2) do not have valid
                             patents or exclusivities, or have patents or exclusivities that will expire
                             in the near future; (3) are deemed approvable in multiple divisions; or
                             (4) contain only minor deficiencies.
                             The Food and Drug Administration does not review consults within policy
                             timeframes
                             FDA’s CDER policy indicates that OGD should receive consult results
                             for highest-priority consults within 15 days and lowest-priority
                             consults within 90 days. Consult priority is based, in part, on how
                             close the ANDA is to approval. In practice, however, consult results
                             generally are not returned to OGD within the timeframes specified in
                             policy, which prolongs ANDA review times.

                             For the 100 pending OGD consults, days pending ranged from 3 to
                             882.63 Of these pending consults, 78 percent (78 of 100) were not


                               63 These consults were pending as of June 22, 2007, the date on which we received the
                             OGD consult data.



     OEI-04-07-00280         THE FOOD       AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S                     17
F   I N D I N G        S


                      returned to OGD within 90 days (i.e., the longest period of time
                      specified by CDER policy). Sixty-eight percent (68 of 100) were not
                      returned within 180 days. The number of days pending for all
                      100 consults is presented in Appendix D.
                      The Food and Drug Administration does not consider market entry date
                      when prioritizing Abbreviated New Drug Applications
                      FDA’s OGD generally maintains a first-in, first-reviewed policy for
                      reviewing ANDAs. FDA grants exceptions to this policy, such as for
                      first generic drugs that do not have valid patents or exclusivities at the
                      time of submission.64
                      However, FDA does not grant exceptions to this policy for ANDAs of
                      non-first generic drugs without patents or exclusivities (i.e., ANDAs
                      that are close to approval rather than tentative approval).65 Thus, OGD
                      reviews ANDAs with valid patents or exclusivities while ANDAs that
                      can immediately enter the market wait in the queue.

                      Twenty-nine percent (291 of 989) of original ANDAs under review by
                      OGD in 2006 could not immediately enter the market because of valid
                      patents or exclusivities. Chemistry reviewed nearly 60 percent of
                      these ANDAs (168 of 291) within 180 days.

                      In contrast, 71 percent (698 of 989) of original ANDAs under review in
                      2006 could enter the market as soon as OGD approved them.66
                      Chemistry reviewed only 52 percent of these ANDAs (365 of 698)
                      within 180 days.
                      The Food and Drug Administration prioritizes Abbreviated New Drug
                      Applications differently across divisions
                      FDA’s OGD prioritizes ANDAs with approvable reviews differently
                      across divisions. Divisions also classify and prioritize amendments
                      differently. Differences in prioritizing ANDAs affect ANDA review
                      times, as described below.




                        64 First generics are drugs that have never been approved before as generics and are new
                      to the market.
                        65 According to FDA, the second and subsequent generic drugs to enter the market effect
                      the greatest cost savings. First generic drugs are priced only slightly lower than brand
                      name drugs. Available online at http://www.fda.gov/cder/ogd/generic_competition.htm.
                      Accesssed on February 18, 2008.
                        66 This includes ANDAs in which the applicants are challenging the validity of the
                      patents or exclusivities.



    OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   18
F   I N D I N G        S


                      Divisions in the Office of Generic Drugs do not consistently assign high
                      priority to approvable Abbreviated New Drug Applications. Other OGD
                      divisions assign high priority to an ANDA after Chemistry deems the
                      ANDA approvable. However, Chemistry maintains CDER’s first-in,
                      first-reviewed policy and does not change the priority of ANDAs deemed
                      approvable by other divisions.

                      For example, if Chemistry deems an ANDA approvable before other
                      divisions, the ANDA is designated as high priority and reviewed ahead
                      of other ANDAs in divisions’ queues.67 In contrast, if all three
                      non-Chemistry divisions deem an ANDA approvable, Chemistry does
                      not assign high priority to the ANDA. Rather, Chemistry reviews the
                      ANDA according to CDER’s first-in, first-reviewed policy.

                      Divisions in the Office of Generic Drugs do not consistently classify and
                      prioritize amendments. Federal regulation recognizes that
                      amendments that contain significant new data will require significant
                      additional review time.68 Pursuant to CDER guidance, these major
                      amendments have the same review priority as original, unreviewed
                      ANDAs.69 CDER guidance also directs OGD to classify all other
                      amendments as minor. When minor amendments are received,
                      divisions should assign high priority to them to expedite the review of
                      ANDAs that are near approval.70
                      According to FDA, only Chemistry classifies amendments as major or
                      minor.71 72 In addition, during our structured interviews, an OGD
                      official stated that amendments in non-Chemistry divisions are
                      treated as minor amendments and prioritized ahead of original




                        67 The other divisions also assign high priority to any amendments they receive for the
                      ANDA.
                        68 21 CFR § 314.96(a).
                        69 CDER, Guidance for Industry. “Major, Minor, and Telephone Amendments to
                      Abbreviated New Drug Applications.” Available online at
                      http://www.fda.gov/cder/guidance/4706fnl.pdf. Accesssed on December 13, 2006.
                        70 Ibid.
                        71 For example, see Ted Sherwood, Office of Pharmaceutical Science in CDER at FDA.
                      “Generic Drugs: Overview of ANDA Review Process.” Available online at
                      http://www.fda.gov/cder/audiences/iact/forum/200704_sherwood.pdf. Accesssed on
                      June 26, 2007.
                        72 We confirmed this OGD practice by examining COMIS data. A COMIS data field

                      tracks major and minor amendments for Chemistry. Codes in other divisions do not
                      designate amendments as major or minor.



    OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   19
F   I N D I N G        S


                      ANDAs in the queue, regardless of the significance of the data
                      contained in the amendment.

                      Not classifying amendments as major or minor may place ANDAs
                      with more deficiencies ahead of those with fewer. This may dilute the
                      effectiveness of the amendment prioritization process by delaying
                      reviews of amendments that are truly minor and original ANDAs.




    OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   20
Δ      R E C O M M E N D A T I O N S




                      Generic drugs are generally thought of as one way to rein in increasing
                      health costs. FDA’s timeliness in approving generic drugs has recently
                      been a topic of scrutiny by both Congress and the media. Federal law
                      requires that FDA approve or disapprove original ANDAs within
                      180 days of receipt.

                      We found that FDA disapproved most original ANDAs under review in
                      2006 because they did not meet FDA review standards. Nearly half of
                      Chemistry review times exceeded the 180 days required by Federal law.
                      Moreover, many review times in other OGD divisions exceeded
                      180 days. In addition, for a sample of ANDA reviews exceeding
                      180 days, most reviews did not begin before the 180-day periods expired.
                      Finally, we found that FDA prioritization practices affect ANDA review
                      times.

                      The ANDA submissions have increased at more than double the rate of
                      review resources in the last 5 years. To better manage OGD’s current
                      ANDA reviews and to potentially increase the number of ANDAs
                      reviewed and approved within 180 days, we recommend that FDA:
                      Identify Common Original Abbreviated New Drug Application Deficiencies
                      and Offer More Guidance to Industry To Decrease the Percentage
                      Disapproved

                      Without lowering review standards, FDA should identify ways to decrease
                      the percentage of disapproved original ANDAs. Disapproving fewer
                      original ANDAs would reduce the number of amendments that FDA’s
                      OGD receives and reviews. If OGD received fewer amendments, the queue
                      would become smaller, and OGD could allocate more resources to review
                      original ANDAs within 180 days.

                      To decrease the percentage of ANDAs originally disapproved, we suggest
                      that OGD examine deficiency letters to identify common deficiencies in
                      original ANDAs. The types of deficiencies that occur most frequently
                      indicate the areas in which applicants need more guidance. FDA should
                      create or revise guidance to address these problem areas. Expanded
                      guidance may improve the quality of the ANDAs submitted to OGD and
                      increase the percentage of original ANDAs approved within 180 days.




    OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   21
R   E C O        M M E N D A T                    I O N               S


                      Increase the Percentage of Original Abbreviated New Drug Applications
                      Reviewed by All Divisions Within 180 Days
                      Federal regulation requires that FDA approve or disapprove original
                      ANDAs within 180 days of receipt. In addition, FDA’s proposed rule
                      would require that all divisions review ANDAs within the 180-day
                      regulatory requirement, regardless of whether Chemistry identifies
                      deficiencies in the original ANDAs.

                      In light of the current regulation and proposed rule, FDA should
                      continue to revise the ANDA review process to reduce review times in
                      all divisions. Because queue times in our sample of ANDAs were longer
                      than division review times and the 180-day period passed while most of
                      our sample waited in the queue, FDA should focus on reducing queue
                      times.
                      Identify New Prioritization Practices To Reduce Review Times for
                      Abbreviated New Drug Applications Close to Approval
                      ANDAs that are close to approval include those that have high-priority
                      consults, have no valid patents or exclusivities (or have patents or
                      exclusivities that expire soon), are deemed approvable in multiple
                      divisions, or contain only minor deficiencies.

                      We recommend that FDA assign priority to and meet review timeframes
                      for consults based on whether the ANDAs are close to approval,
                      according to CDER’s consult policy. In addition, FDA should identify
                      ANDAs close to approval and improve the prioritization process to
                      reduce review times for these ANDAs. These new prioritization
                      processes would generate exceptions to CDER’s first-in, first-reviewed
                      policy for reviewing ANDAs. If implemented, OGD would need to
                      uniformly apply and properly document these exceptions.

                      Evaluate the consultation process to meet review timeframes specified by
                      Food and Drug Administration policy. FDA’s CDER policy defines high- and
                      low-priority consults based, in part, on whether the ANDA is close to
                      approval. The policy also establishes review timeframes based on the
                      consult’s priority. However, we found that, in practice, consult results
                      generally are not returned to OGD within specified timeframes, regardless
                      of the consult’s priority.

                      FDA should examine the ANDA consultation process to determine how
                      consults can be returned to OGD within the timeframes specified in CDER
                      policy, particularly consults for ANDAs close to approval. Obtaining
                      consults within designated priority timeframes may reduce the number of
                      ANDAs exceeding the 180-day regulatory requirement.

    OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   22
R   E C O        M M E N D A T                    I O N               S


                      Identify and assign high priority to Abbreviated New Drug Applications close to
                      approval. Assigning high priority to some ANDAs will reduce review times
                      for these ANDAs but will also delay reviews for lower-priority ANDAs. In
                      light of this, we offer the following options to FDA’s OGD for identifying
                      ANDAs that are close to approval and improving the ANDA prioritization
                      process. We also recognize that there may be additional options to
                      improve the prioritization process.
                      •	 Prioritize Abbreviated New Drug Applications based on potential market
                        entry date. OGD could review ANDAs for generic drugs without
                        valid patents or exclusivities ahead of those with them. OGD could
                        assign high priority to and reduce review times for ANDAs that can
                        be approved and marketed immediately (i.e., ANDAs without valid
                        patents or exclusivities) or in the near future (i.e., ANDAs with
                        valid patents or exclusivities expiring soon). However, OGD should
                        not delay ANDA reviews if the delay violates current FDA policy
                        (e.g., ANDAs expedited under the PEPFAR program or expedited
                        first generic drugs).
                      •	 Assign high priority to Abbreviated New Drug Applications with
                        approvable reviews in multiple divisions. OGD could prioritize
                        ANDAs based on the number of divisions with approvable reviews.
                        As a result, ANDAs with few deficiencies across divisions (i.e.,
                        ANDAs approvable by multiple divisions and, thus, close to
                        approval) would be reviewed more quickly.
                      •	 Classify amendments according to Food and Drug Administration policy
                        and assign high priority to Abbreviated New Drug Applications with only
                        minor deficiencies. OGD could follow or revise amendment policies
                        so that divisions classify and prioritize amendments similarly. In
                        all divisions, OGD could assign high priority to ANDAs with minor
                        deficiencies (i.e., ANDAs close to approval) and review them before
                        ANDAs with major deficiencies.


                      AGENCY COMMENTS
                      In its comments to the draft report, FDA noted that OGD and CDER
                      staff have already identified portions of the primary recommendations,
                      and FDA is implementing process improvements that are the same as or
                      similar to the recommendations. Specifically, FDA agreed with our first
                      recommendation but did not indicate whether it concurred with the two
                      additional recommendations.


    OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   23
R   E C O        M M E N D A T                    I O N               S


                      FDA agreed that increasing the number of original ANDAs approved
                      (i.e., in the first review cycle) would help streamline the review process
                      by decreasing the number of amendments and subsequent review
                      cycles. FDA has provided guidance to assist industry in submitting
                      more easily reviewed applications and indicated that the development of
                      guidance is a continually evolving process.

                      Although FDA did not indicate whether it concurred with the second
                      recommendation, FDA noted that it continues to alter its review process
                      with the goals of reducing queue times and reviewing original ANDAs
                      within 180 days. FDA has developed a focused hiring program to
                      increase staff and anticipates that additional reviewers will eventually
                      decrease review times. In addition, FDA is developing other approaches
                      to increase review efficiency, including shifting responsibilities to the
                      Project Management staff.

                      FDA also did not indicate whether it concurred with the last
                      recommendation. FDA stated that a variety of external forces can affect
                      an application’s review and approval, which makes determining
                      whether an ANDA is “close to approval” difficult. FDA also expressed
                      some concerns about the options presented in our recommendation.
                      However, it appears that FDA has taken some actions to address this
                      recommendation. FDA noted that it prioritizes some ANDAs based on
                      potential market entry date and may consider further revisions to this
                      process. In particular, FDA indicated that a possible consideration
                      would be to delay reviews for ANDAs with patents that expire far into
                      the future. However, FDA noted that such a process would require a
                      thorough examination of all related issues and policy changes within
                      OGD.

                      FDA also provided several technical comments to the report. We have
                      incorporated these comments into the report, as appropriate.
                      We ask that, in its final management decision, FDA more clearly
                      indicate whether it concurs with each of our recommendations. For the
                      full text of FDA’s comments, see Appendix E.




    OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   24
Δ      A P P E N D I X ~ A

                  ADDITIONAL INFORMATION ON METHODOLOGY
                  Below we provide additional information about the methodology used to
                  accomplish our objectives.
                  Food and Drug Administration Policies, Procedures, and Guidance
                  We reviewed the Food and Drug Administration’s (FDA) Center for
                  Drug Evaluation and Research (CDER) policies, procedures, and
                  guidance on the:

                  • issuance and tracking of consults in the Office of Generic Drugs
                    (OGD),

                  • review order of original Abbreviated New Drug Applications
                    (ANDAs) and amendments, and

                  • classification of major and minor amendments.

                  We compared these documents to information gathered about ANDA
                  review practices from OGD officials as well as data obtained from FDA’s
                  Centerwide Oracle Management Information System (COMIS), surveys of
                  OGD reviewers, and structured interviews with OGD officials. We
                  identified generic drug review practices that deviated from CDER policies,
                  procedures, or guidance. We also identified policies and practices that
                  affected ANDA review times (e.g., OGD does not prioritize ANDAs based
                  on potential market entry date).
                  Centerwide Oracle Management Information System Data
                  We obtained COMIS data from FDA to assess each division’s review
                  times for ANDAs under review in 2006. We defined ANDAs as “under
                  review” if they contained a date between January 1 and
                  December 31, 2006, in any of the following COMIS fields:

                  • the date on which the ANDA was addressed to OGD,

                  • the date on which at least one division completed its review of the
                    ANDA, or

                  • the date on which Chemistry acted on the ANDA.

                  We obtained COMIS data for all ANDAs meeting at least one of the
                  above criteria. Although we received data from FDA for 1,619 original
                  ANDAs, we analyzed review times for 989 original ANDAs.

                  We removed data for 37 ANDAs because they did not meet our criteria
                  of being submitted, in the review queue, under review, or reviewed by at



OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   25
   A P     P E N D     I X ~             A


                  least one division in 2006. Additional records were removed from the
                  data set if at least one of the following criteria was met:

                  • The ANDA was closed administratively or not assigned to divisions
                    based on the results of the filing review (116 ANDAs),

                  • COMIS did not contain data for the ANDA in all three divisions
                    that review each ANDA (Bioequivalence, Chemistry, and Labeling;
                    393 ANDAs), and

                  • The ANDA had been pending fewer than 180 days and Chemistry
                    had not completed its review (84 ANDAs).

                  The COMIS data were analyzed using SAS,® a statistical analysis
                  program. ANDA review times were calculated for each of the four
                  divisions by subtracting the date on which OGD received the ANDA
                  from the date on which each division completed its review. If an
                  ANDA was currently pending in a division for more than 180 days, we
                  entered the date on which we obtained the COMIS data from FDA
                  (April 2, 2007) as the review completion date and assigned a pending
                  code to the record.

                  In some cases, an ANDA contained multiple records for a division
                  (e.g., Bioequivalence has multiple COMIS division codes that all
                  reflect the Bioequivalence review). To capture the total time for a
                  division to complete the ANDA review, the last date on which a
                  review was completed in the division was used as the review stop
                  date.

                  For cases in which one record for an ANDA within a division
                  contained a review stop date but another record within the same
                  division and ANDA contained no stop date, the last stop date was
                  used. A review stop date indicates that the review is complete, and
                  we did not classify these cases as pending.
                  Office of Generic Drugs Reviewers
                  From the COMIS data, we identified ANDAs with review times greater
                  than 180 days and selected a sample of 105 ANDA reviews. To obtain
                  this sample, we identified reviewers assigned to a subset of recently
                  submitted ANDAs within each division. We sampled from ANDAs in
                  which the 180-day review clock would have expired in the 4 months
                  prior to the date on which we requested the data from FDA. These
                  ANDAs were submitted from June through September 2006.




OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   26
   A P     P E N D     I X ~             A


                  We randomly selected 25 tentatively approved, disapproved, or pending
                  ANDAs within each division. In each division, we randomly selected
                  one ANDA review per reviewer until each reviewer was sampled once or
                  until 25 ANDA reviews were selected. If we did not obtain 25 ANDA
                  reviews within a division after each reviewer was sampled once, we
                  randomly selected additional ANDA reviews in the division, 1 per
                  reviewer, until we obtained 25 ANDAs within the division.

                  We also selected all ANDAs that were approved but had review times
                  greater than 180 days. This added five ANDA reviews to Chemistry
                  and one ANDA review to Labeling for our sample.
                  Therefore, we collected data from reviewers for a total of 106 ANDA
                  reviews: 30 Chemistry, 25 Bioequivalence, 26 Labeling, and
                  25 Microbiology. However, one Labeling reviewer indicated that the
                  COMIS data for his review were wrong and the ANDA was reviewed
                  within 180 days. We removed this ANDA review from our sample.
                  Thus, our analysis of reviewer data was based on 105 ANDA reviews.
                  Reviewers’ survey responses indicated the date on which their review of
                  each ANDA began as well as the factors that contributed to the ANDA
                  reviews’ exceeding 180 days within their division.
                  Office of Generic Drugs Officials
                  We conducted structured interviews with a division director (in all
                  divisions except Microbiology), team leader, and project manager from
                  each of the divisions as well as the Director of OGD. We asked these
                  12 individuals open-ended questions concerning factors that contribute
                  to longer review times throughout the generic drug review process.

                  We used reviewers’ and officials’ responses to understand ANDA review
                  practices and to identify factors that contribute to ANDA review times
                  exceeding 180 days. In addition, data from reviewers and officials
                  provided the basis for collecting and analyzing additional FDA data.
                  For example, reviewers’ and officials’ responses prompted us to examine
                  the OGD consult data and to compare review times for ANDAs affected
                  by valid patents or exclusivities with those that could enter the market
                  immediately.




OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   27
Δ   A P P E N D I X ~ B




                  2006 Chemistry Review Time Ranges


                  ANDA Approval Status                          Review Time Range for ANDAs With Review Time > 180 Days
                  Approved                                                                                                         246–306 days

                  Tentatively Approved                                                                                             187–667 days

                  Disapproved                                                                                                      181–816 days

                   All                                                                                                             181–816 days


              Source: Office of Inspector General analysis of FDA COMIS data, 2007.




OEI-04-07-00280          THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S                  28
Δ    A P P E N D I X ~ C




                        2006 Microbiology, Bioequivalence, and Labeling Review Time Ranges

                        OGD Division                                 Review Time Range for ANDAs With Review Time > 180 Days*
                        Microbiology                                                                                                    181–651 days

                        Bioequivalence                                                                                                  181–610 days

                        Labeling                                                                                                        181–627 days

                      * Review time ranges may be underestimated because review times for pending ANDAs in these divisions were
                      accruing when we obtained the data. For ANDAs with review times greater than 180 days, the percentages that
                      were pending at the time we obtained the data were: 73 percent for Microbiology (127 of 175 ANDAs), 3 percent
                      for Bioequivalence (16 of 576 ANDAs), and 32 percent for Labeling (178 of 556 ANDAs).

                      Source: Office of Inspector General analysis of FDA COMIS data, 2007.




    OEI-04-07-00280           THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S                  29
Δ      A P P E N D I X ~ D




                                               25
        Frequency 

    Distribution of

Office of Generic                              20
 Drugs Consults
                          Number of Consults

    Pending as of
        June 2007                              15



                                               10



                                               5



                                               0
                                                                             0


                                                                                           0


                                                                                                         0


                                                                                                                       0


                                                                                                                                     0


                                                                                                                                                    0


                                                                                                                                                               0


                                                                                                                                                                         0
                                                              80
                                                    90




                                                                         27


                                                                                       36


                                                                                                     45


                                                                                                                    54


                                                                                                                                  63


                                                                                                                                                72


                                                                                                                                                               81


                                                                                                                                                                         90
                                                            –1
                                                 0–




                                                                       1–


                                                                                     1–


                                                                                                   1–


                                                                                                                  1–


                                                                                                                                1–


                                                                                                                                              1–


                                                                                                                                                             1–


                                                                                                                                                                       1–
                                                         91


                                                                    18


                                                                                  27


                                                                                                36


                                                                                                               45


                                                                                                                             54


                                                                                                                                           63


                                                                                                                                                          72


                                                                                                                                                                    81
                                                                                                 Number of Days Pending

                        Source: Office of Inspector General analysis of FDA’s consult data, 2007.




      OEI-04-07-00280                           THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S                       30
Δ    A P P E N D I X ~ E




    OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   31
   A P P E N D         I X ~ E                        





OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   32
   A P P E N D         I X ~ E                        





OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   33
   A P P E N D         I X ~ E                        





OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   34
   A P P E N D         I X ~ E                        





OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   35
Δ   A C K N O W L E D G M E N T S


                  This report was prepared under the direction of Robert A. Vito, Acting
                  Regional Inspector General for Evaluation and Inspections in the
                  Atlanta regional office, and Dwayne F. Grant, Deputy Regional
                  Inspector General.

                  Jaime Durley served as the lead analyst for this study. Other principal
                  Office of Evaluation and Inspections staff from the Atlanta regional
                  office who contributed to this report include Sarah Ambrose and Mina
                  Zadeh; central office staff who contributed include Ayana Everett, Kevin
                  Farber, Rob Gibbons, and Mark Richardson; Joyce Greenleaf from the
                  Boston regional office also contributed.




OEI-04-07-00280   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S G E N E R I C D R U G R E V I E W P R O C E S S   36
